                          Closeout of ~91010008

         was brought to OIG on Januar
         a program officer in the &Program.
                                            1991 by    -He noted a
~roblemthat had come UD in connection with a ~ r o ~ o s asubmitted


collaborate with the proposal
proposal.
                                      author as described
                                                           l


                                                            in the

OIG finds that the proposal in fact includes a plan to use an
unpublished research method developed by the reviewer.    The
proposer intended to collaborate with the reviewer and stated
that she had expressed an interest in such collaboration.
Alternatively, the proposer had planned to wait until the
reviewer had published the method.
We find that the proposer's course of action at most expresses a
misunderstanding of the reviewer's intentions or an optimistic
expectation of when the reviewer would publish.      However, it
raises no question of misconduct.       Since the proposal was
withdrawn and not funded, there will be no problems about the
subsequent cooperation of these two individuals under this
proposal. Consequently, this case can be closed with no further
action on the part of OIG.




Donald E. ~ u z z e l l i ~
March 7, 1991


Copy: Inspector General
